                                                              C-IN-OSM-0095-2002-A


             United States Department of the Interior
                             Office of Inspector General
                                  Washington, D.C. 20240


                                                                          March 17, 2003

Memorandum

To:        Director, Office of Surface Mining Reclamation and Enforcement


From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject:   Management Issues Identified During the Audit of the Office of Surface
           Mining Reclamation and Enforcement’s Fiscal Year 2002 Financial
           Statements (No. 2003-I-0035)

        We contracted with KPMG LLP, an independent certified public accounting firm,
to audit the Office of Surface Mining Reclamation and Enforcement’s (OSM) financial
statements as of September 30, 2002 and for the year then ended. In conjunction with its
audit, KPMG noted certain matters involving internal control and other operational
matters that should be brought to management’s attention. These matters, which are
discussed in the attached letter, are in addition to those reported in KPMG’s audit report
on OSM’s financial statements (Report No. 2003-I-0022) and do not constitute reportable
conditions as defined by the American Institute of Certified Public Accountants.

        The recommendations will be referred to the Assistant Secretary for Policy,
Management and Budget for tracking of implementation, therefore your response should
be provided directly to that office. If you have any questions regarding KPMG’s letter,
please contact me at (202) 208-5512.

       Section 5(a) of the Inspector General Act (5 U.S.C. App. 3) requires the Office of
Inspector General to list this report in its semiannual report to the Congress.



Attachment

cc:     Assistant Secretary for Land and Minerals Management
        Chief Financial Officer, Office of Surface Mining Reclamation and Enforcement
        Director, Office of Financial Management
        Audit Liaison Officer, Land and Minerals Management
        Audit Liaison Officer, Office of Surface Mining Reclamation and Enforcement
        Focus Leader for Management Control and Audit Followup,
         Office of Financial Management
                                                                                  ATTACHMENT




      Suite 2700
      707 Seventeenth Street
      Denver, CO 80202




November 15, 2002


The Director of the Office of Surface Mining Reclamation and Enforcement
 and the Inspector General of the Department of the Interior:

We have audited the financial statements of the Office of Surface Mining Reclamation and Enforcement
(OSM) for the year ended September 30, 2002, and have issued our report thereon dated November 15,
2002. In planning and performing our audit of the financial statements, we considered internal control in
order to determine our auditing procedures for the purpose of expressing our opinion on the financial
statements. An audit does not include examining the effectiveness of internal control and does not provide
assurance on internal control. The maintenance of adequate internal control designed to fulfill control
objectives is the responsibility of management. Because of inherent limitations in internal control, errors or
fraud may nevertheless occur and not be detected. Also, controls found to be functioning at a point in time
may later be found deficient because of the performance of those responsible for applying them, and there
can be no assurance that controls currently in existence will prove to be adequate in the future as changes
take place in the organization. We have not considered internal control since the date of our report.

During our audit we noted certain matters involving internal control and other operational matters that are
presented for your consideration. These comments and recommendations, all of which have been discussed
with appropriate members of management, are intended to improve internal control or result in other
operating efficiencies and are summarized below. In addition to our 2002 comments and recommendations,
we have reported the status of prior year management letter comments. Their current status is addressed in
the progress on prior year management letter recommendations section of this letter.

Network Security
Our audit revealed areas relative to the OSM’s network security management that require improvement in
order to enhance security effectiveness from both external and internal perspectives. Network security
control weaknesses were identified as indicated below.

Externally:

a)    Network Software Implementation – The OSM’s Fee Billing and Collection System (FEEBACS)
      back-end database financial software is placed on a host that also houses a publicly accessible
      application known as AVS. The FEEBACS back-end application is not intended to be publicly
      accessible and, by design, the FEEBACS front-end application is accessible by a web page. The
      AVS system is publicly accessible via TELNET protocol without TCP wrappers and SSH; screen
      shots indicate this is the case externally from across the Internet. Because the host is publicly
      accessible, its IP address can be found from publicly available information. The TELNET session
      without TCP wrappers and SSH is “in the clear” and is thus vulnerable to successful “sniffing” of
      login ID and password credentials from anywhere on the Internet.


                  KPMG, LLP. KPMG, LLP a U.S. limited liability partnership, is
                  a member of KPMG International, a Swiss association.=
b)    Although AVS is a “read only” application for the majority of users, there are users with “write”
      access. As such, the potential exists for an unauthorized user or attacker to obtain legitimate access
      credentials that convey “write” privileges to an area on the shared host. Those write privileges may
      be used in combination with known Unix exploits and/or malicious scripts to escalate a
      compromised account to higher levels of access. This may, in turn, allow the attacker to exit the
      application and establish a session with the operating system of the shared host, which in turn
      cascades the risk of compromise to the FEEBACS back-end database files.

c)    In addition, an exploitable vulnerability was found during an external scan against a web server host.
      Specifically, we noted predictable TCP Packet Sequence Numbers vulnerability, which reveals the
      software implementation of the TCP/IP stack on the host and uses a faulty random number generator
      and should be patched with an updated version. If successfully exploited, this vulnerability can
      escalate the attacker to a logical position of being able to acquire unauthorized access to the
      operating system either directly or by “spoofing.”

Internally:

a)    Certain hosts’ operating systems installed with common security vulnerabilities.

b)    Null session connections allowing enumeration of users and shares.

c)    Weak password files (Denver downtown and Washington DC locations), which allowed access to
      the password file for the host.

d)    Three noncurrent accounts on the FEEBACS web server.

The weaknesses identified can permit an attacker to “sniff” TELNET logins onto the host platform, thus
obtaining a means of accessing the AVS/FEEBACS back-end host with some level of authorized
“privilege.” If the FEEBACS database is not properly “locked down” (i.e., host based IDs, auditing turned
on, nonshared administrative accounts), the probability exists that an attacker with intermediate skills can
compromise the AVS application, escalate the privilege set, and successfully attack/compromise the
FEEBACS back-end database.

Although many of the vulnerabilities identified above do not directly impact financial systems, the
presence of vulnerabilities on nonfinancial systems, increases the risk of penetration to the network overall.

Recommendation

The OSM should take the following steps to improve its network security posture:

a)    Review current network configuration and apply all current patches.

b)    Improve frequency of network configuration and monitoring.
In addition, to correct the immediate vulnerabilities identified, the OSM should:

c)    Separate the FEEBACS back-end database from the AVS and place the FEEBACS back-end
      database on a separate processing platform that does not host other “publicly available” applications.
      An alternative solution may be to require that FEEBACS users, with “write” access, use SecureShell
      when accessing the application.

d)    Place the FEEBACS back-end database host in an internally accessible only zone on the OSM
      intranet.

e)    Implement processes to identify and remove in a timely manner all noncurrent accounts on the
      FEEBACS web server.

OSM Response

The OSM concurs with the above finding and recommendation and offers the following responses to
specific recommendations. Item (a), “Review current network configuration and apply all current patches,”
and item (b), “Improve frequency of network configuration and monitoring,” both apply to the findings
identified under the heading of “Internally.”

With regard to the specific findings in this category, item (a), “Certain hosts’ operating systems installed
with common security vulnerabilities” and item (b) “Null session connections allowing enumeration of
users and shares,” both refer to four conditions observed during the internal penetration testing. The first
condition is known as IP Forwarding and was discovered to be active on one of the Division of Financial
Management’s (DFM) Hewlett-Packard 3000 mini-computers. This was a configuration problem and was
resolved on August 20, 2002. The second condition has to do with FTP on the same Hewlett-Packard 3000
mini-computer. KPMG is concerned that the version of FTP on this mini-computer is patched to a level
that is greater than or equal to WFTPD 2.4.1rc11. The OSM contacted the vendor (Hewlett-Packard) and
received documentation that the version of FTP in use on this server is current, and that all known CERTs
for FTP are covered in this version.

The third condition has to do with SNMP on this same Hewlett-Packard Server. Again, the OSM contacted
the vendor (Hewlett-Packard) and discovered that the current version of SNMP does not comply with all
issued CERT’s for SNMP. As of November 7, 2002 an updated version of SNMP for the Hewlett-Packard
3000 that does comply with all issued CERT’s became available. This patch will be implemented by the
end of December 2002.

The fourth condition observed was KPMG’s ability to enumerate user names, shares and policy on some of
the Windows based servers used throughout the OSM. Upon further investigation by the DFM Systems
staff and staff at Microsoft Corporation, it was discovered that the Windows based servers in use at the
DFM were all patched for this vulnerability. In fact, closer examination of the detailed penetration reports
revealed that the Windows based servers at the DFM would enumerate the user names but not the shares or
the policy. This is the current “state of the art” for this Windows operating system and there is nothing
more that the DFM can do at this time. The DFM will continue to monitor the availability of patches to
further secure this vulnerability.

OSM Response, Continued

Item (c) from the internal penetration testing, “Weak password files (Denver downtown and Washington
DC locations) which allowed access to the password file for the host,” has been resolved. The
administrators for these platforms were informed of this condition shortly after it was identified and steps
have been taken to strengthen these passwords.
Item (d) from the internal penetration testing, “Three noncurrent accounts on the FEEBACS web server,”
has been resolved. During their testing, KPMG noticed that three user accounts were active on this web
server when the individuals were no longer at the DFM. These user accounts were for the developers of the
system. At the time of the audit, sporadic development work was still occurring on this web server. While
this in no way supports leaving these user accounts active while the developers were not actively engaged
in software development, it does provide a reason for why this situation existed. Since that time the DFM
has strengthened its procedure for establishing and maintaining user accounts on the web server in such a
way that this situation has been eliminated. This satisfies recommendation (e) “Implement processes to
identify and remove in a timely manner all noncurrent accounts on the FEEBACS web server.”

Recommendation (c) states “Separate the FEEBACS Back-end database from the AVS and place the
FEEBACS Back-end database on a separate processing platform that does not host other “publicly
available” applications. An alternative solution may be to require that FEEBACS users, with “write”
access, use SecureShell when accessing the application.” OSM would like to note that all of the FEEBACS
users that have “write” access are stationed at DFM. Therefore, there are no users with “write” access that
are traversing the Internet to gain access to this application. For this reason, the OSM is somewhat
comfortable with the fact that FEEBACS and AVS reside on the same physical platform. The OSM will be
investigating a number of options for further improving the security of these systems over the next several
months and will be evaluating the cost-effectiveness of each.

With regard to recommendation (d), “Place the FEEBACS Back-end database host in an internally
accessible only zone on the OSM intranet,” OSM will be investigating a number of options to further
improve the security of this system including putting it on a separate platform within our intranet. This
investigation will be conducted along with our analysis of options to satisfy recommendation (c) above.

Application Logical Access

Our audit determined that the OSM’s access controls and security policies for applications need
improvement. For instance:

a)    Changes to the Advanced Budget/Accounting Control and Information System (ABACIS) database
      are made using the “MGR” group account, rather than through individual accounts. The “MGR”
      account is designated for application administration and is not to be used for nonadministrative
      functions.

b)    ABACIS system users that should not have access to the “MGR” account password improperly used
      the group account.

c)    Contrary to the OSM’s policy, some changes made to data in the database were not supported by a
      System Trouble Report (STR) form, which documents the nature and approval of the change.

d)    Individual accounts have been assigned to execute ABACIS administration, however, the group
      “MGR” account continues to be used.

e)    OSM management has not developed a security plan for the Federal Personnel and Payroll System
      (FPPS) application.

f)    Access rights to the Hyperion application were active for an individual who had transferred from the
      accounting department in August 2001. The individual no longer required access to Hyperion to
      perform required job functions.
Weak logical access controls increase the risk of unauthorized access to the application, which can result in
loss, damage or theft of valuable information and/or resources. At a minimum, users can currently obtain
access to sensitive data and systems that are not commensurate with their job requirements. In the event of
unauthorized access, timely generation and review of security logs could help ensure that security breaches
are detected and the source of the breech identified, allowing management to act on violations.

OSM has detailed policies and procedures governing logical security over the ABACIS application.
According to OSM management, the importance of STR documentation, and use of only individual
accounts has been emphasized, however, compliance with the policy has not been achieved.

It appears the above problems stem from a combination of factors including the need for additional logical
access policies, a lack of application security plans, and a lack of management oversight to ensure
compliance with current IT policies.

Recommendation

The OSM should implement the following changes to improve access controls over its financial
applications:

a)    Limit the use of group administration accounts and passwords for the ABACIS application.

b)    Increase management oversight over making changes to the ABACIS database, (e.g., consider
      performing random audits of database changes to ascertain compliance by OSM personnel).

c)    Increase management oversight over the termination of access rights for transferred employees to
      ensure that access rights are removed in a timely manner.

In addition, relative to FPPS and Hyperion, the OSM should direct and support the development and
implementation of security plans for these applications. Given FPPS and Hyperion are owned by the
Department of the Interior, the security plans should address only those aspects relevant to the OSM.
Further, the OSM’s security plans should incorporate guidance supplied by the Department.

OSM Response

The OSM partially agrees with the above findings and recommendation and offers the following response.

With respect to item “a” under the Recommendation, the OSM limited knowledge of the group
administrator (MGR) User Id and password to 3 people (the primary administrator and 2 backups). This
was done in October of 2001. We feel that this is sufficient as it provides an acceptable level of control
over the use of the group administrator (User Id) while allowing the OSM to maintain an acceptable
backup presence for the primary administrator. We recognize this as an acceptable level of risk in our risk
analysis for the Hewlett-Packard server.

Recommendation “b” calls for the OSM to increase management oversight over changes made to ABACIS
data and to consider implementing random audits of database changes to ascertain compliance with
procedures. The OSM already performs random audits of database changes. The system owners randomly
request listings of database log files and review these log files. Whenever a change to data using
NMQUERY is noted in the log files, the system owners request a supporting System Trouble Report (STR)
for documenting the change. The OSM will continue this process and continue to refine the procedure in
order to eliminate any future occurrences of undocumented data changes.
Item “c”, the Hyperion access condition involves a DFM employee who had been transferred from one
team to another within the DFM. This individual is a current DFM employee. While it is true that the
employee had a user ID for the Hyperion application, the employee never had credentials for the National
Business Center's (NBC) citrix server that houses the Hyperion application. Since fiscal year 2000,
Hyperion users must first log into the citrix server and then log into the Hyperion application. Under this
scenario, the employee could never have accessed the application without the proper server credentials.
The employee’s user ID has since been removed from the application.

With regard to the need for security plans for FPPS and Hyperion, the DFM will obtain sample security
plans for these systems from another bureau within the Department of the Interior. We will then modify
these plans to our particular use of the departmental systems.

System Software

The OSM’s DFM has not developed policies to help ensure the proper monitoring of, access to, and use of
its operating system software.

Controls over access to the operating system software are essential in providing reasonable assurance that
system-based security controls are not compromised. If related personnel policies for system access
controls are not adequate, there is a risk that untrustworthy and untrained individuals may have unrestricted
access to software code, terminated employees may have the opportunity to compromise systems, and
unauthorized actions may not be detected.

It appears the OSM has not emphasized the development of polices and procedures governing access to
and monitoring of operating system software, as they rely on the expertise of the IT department staff and
the limited number of individuals with access to system software.

Recommendation

The OSM’s DFM management should develop and implement formal policies and procedures to monitor
the access to and use of its system software and utilities.

OSM Response

Management requires each platform administrator to remain current on required patches and upgrades for
their areas of responsibility. This is a monthly requirement of our Quality Assurance Program that is
monitored by our IT Site Security Officer. It is important to note that due to the rapid implementation of
patches and upgrades by the systems staff, the DFM computer environment has not been successfully
hacked since the implementation of our rigorous program of maintaining systems at the manufacturers’
recommended release level. Each upgrade to the system comes with explicit instructions from Hewlett
Packard (HP), SUN or Microsoft for their appropriate platforms. A consulting firm performs the SUN
upgrades. Hewlett Packard is under contract to supply appropriate upgrades and fixes to the HP operating
system, including written procedures for implementation. A DFM system administrator performs the NT
server patches and upgrades by following Microsoft written and computerized procedures. During the past
year the DFM has enhanced the procedures in its Quality Assurance Log book for identifying and
implementing upgrades, patches, and updates to system software.

To address the above condition, the DFM has added three management approval checkpoints to the process
in order to improve management oversight. The first is a pre-implementation checkpoint where the system
administrator will fully explain the update and the reasons for the update to the Team Leader and Financial
and Administrative Systems Team. If a particular update is deemed not necessary, this will be indicated in
the Quality Assurance Log as well. Once approved by the Team Leader in the Quality Assurance Log, the
system administrator will schedule and apply the update. At the end of the procedure an additional signoff
will occur where the system administrator “closes out” the process with the Team Leader. The new
procedure is as follows:

Procedure for upgrading server system software:

1.    Review the present patches or upgrades to the operating system or software.

2.    Read all the documentation associated with the patch or upgrade and determine if it is appropriate for
      implementation.

      If a patch or upgrade is not considered necessary for implementation, provide a short narrative as to
      why it is not considered necessary and obtain the concurrence of the Team Leader, Financial and
      Administrative Systems Team (FAST).

      If a patch or upgrade is considered necessary for implementation, the change must be discussed with
      the Financial and Administrative Systems Team Leader and must have their signed approval prior to
      proceeding with the implementation.

3.    Once a patch or upgrade has been evaluated and the decision has been made to implement, develop
      and document an implementation plan/schedule. This might include the scheduling of contract
      vendors or scheduling of computer/host down time.

4.    Document how and when the change was implemented.

5.    Once the change has been completely implemented, the change is discussed with the Financial and
      Administrative Team Leader and an approval is required to closeout the upgrade process.

Progress On Prior Year Management Letter Recommendations

The following is a summary of the implementation status of prior year management letter comments.

                     Comment                                                  Status



Information Technology Contingency Plan – The           Implemented. Our fiscal year 2002 audit did not
OSM’s DFM has not performed sufficient testing          identify instances of a lack of testing of the OSM
of its business continuity plan to ensure its ability   business continuity plan.
to fully restore critical systems and data in the
event of a significant business interruption.
                    Comment                                                 Status



Information Technology Change Control – The           Implemented. Our fiscal year 2002 audit did not
OSM had not properly documented changes made          identify instances of undocumented changes
to ABACIS. Further, the OSM’s change control          made to ABICAS or a lack of policies and
methodology does not include policies and             procedures governing application software
procedures governing application software             libraries.
libraries, including labeling and/or maintaining an
inventory of programs.



Information Technology Logical Access – The           Partially Implemented. Our fiscal year 2002
OSM needed to improve certain aspects of logical      audit found the OSM had made some
access for applications owned or used by DFM.         improvements in controls over logical access;
                                                      however, our audit still found areas of inadequate
                                                      controls, as discussed above under application
                                                      logical access.



Information Systems Software – The OSM had            Partially Implemented. Our fiscal year 2002
not developed policies to help ensure the proper      audit found the OSM had made improvements in
monitoring of, access to and use of operating         developing policies and procedures for
system software. Further, OSM had not                 controlling changes to its operating system
developed formal policies and procedures for          software. However, the OSM’s DFM has not
controlling changes to its operating system           developed policies to help ensure the proper
software.                                             monitoring of, access to, and use of its operating
                                                      system software. This outstanding issue is
                                                      discussed above under the system software
                                                      comment.



Investment Policies – The OSM had not                 Implemented. Our fiscal year 2002 audit did not
consistently followed its internal investment         identify instances of a lack of adherence to
policies. It was recommended the OSM improve          internal investment policies.
its procedures to ensure compliance with its own
investment policies.
                    Comment                                                     Status



Approval of Grant Obligations – The OSM had               Implemented. Our fiscal year 2002 audit did not
not consistently documented its approval for              identify instances of a lack of approval for
establishing grant obligations. It was                    establishing grant obligations.
recommended the OSM improve its procedures to
ensure compliance with its internal grant
obligation control guidance listed in its Federal
Assistance Manual.



De-obligating Funds – The OSM had not                     Implemented. Our fiscal year 2002 audit did not
implemented effective procedures to ensure all            identify any significant inactive undelivered
inactive undelivered orders were de-obligated in a        orders that were not de-obligated in a timely
timely manner. It was recommended the OSM                 manner.
perform a thorough review of all unliquidated
obligations and de-obligate invalid undelivered
orders in a timely manner throughout the year.

.

Unauthorized Credit Card Use – The OSM did                Implemented. Our fiscal year 2002 audit did not
not have adequate procedures to ensure credit             identify instances of unauthorized credit card use.
cards were used only by the cardholder identified
on the card. It was recommended the OSM
improve its credit card review procedures.




                                                 *******

Our audit procedures are designed to enable us to form an opinion on the financial statements, and
therefore may not bring to light all weaknesses in policies or procedures that may exist. We aim, however,
to use our knowledge of the OSM gained during our work to make comments and suggestions that we hope
will be useful to you.

We will be pleased to discuss with you in more detail any of the matters referred to in this letter.

This letter is intended for the information and use of the OSM and Department of the Interior’s
management, Department of the Interior’s Office of the Inspector General, the U.S. Office of Management
and Budget (OMB), and the U.S. Congress, and is not intended to be and should not be used by anyone
other than these specified parties.

Very truly yours,
